<html>
<title> - IS HOUSING TOO MUCH TO HOPE FOR?: FEMA'S DISASTER HOUSING STRATEGY</title>
<body><pre>[Senate Hearing 110-681]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-681
 
   IS HOUSING TOO MUCH TO HOPE FOR?: FEMA'S DISASTER HOUSING STRATEGY

=======================================================================



                             JOINT HEARING

                               before the

                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY
                                  AND
                  AD HOC SUBCOMMITTEE ON STATE, LOCAL,
                    AND PRIVATE SECTOR PREPAREDNESS
                            AND INTEGRATION

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                   U.S. GOVERNMENT PRINTING OFFICE
41-455 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                 MARY L. LANDRIEU, Louisiana, Chairman
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              PETE V. DOMENICI, New Mexico
                     Donny Williams, Staff Director
                 Aprille Raabe, Minority Staff Director
                        Amanda Fox, Chief Clerk


 AD HOC SUBCOMMITTEE ON STATE, LOCAL, AND PRIVATE SECTOR PREPAREDNESS 
                            AND INTEGRATION

                   MARK L. PRYOR, Arkansas, Chairman
DANIEL K. AKAKA, Hawaii              JOHN E. SUNUNU, New Hampshire
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               NORM COLEMAN, Minnesota
CLAIRE McCASKILL, Missouri           PETE V. DOMENICI, New Mexico
JON TESTER, Montana                  JOHN WARNER, Virginia

                     Kristin Sharp, Staff Director
                Michael McBride, Minority Staff Director
                        Amanda Fox, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Pryor................................................     1
    Senator Landrieu.............................................     2

                               WITNESSES
                        Thursday, March 4, 2008

Harvey E. Johnson, Jr., Acting Deputy Administrator and Chief 
  Operating Officer, Federal Emergency Management Agency, U.S. 
  Department of Homeland Security................................     7
Milan Ozdinec, Deputy Assistant Secretary, Office of Public 
  Housing and Voucher Programs, U.S. Department of Housing and 
  Urban Development..............................................    10
Howard Frumkin, M.D., DrPH, Director, National Center for 
  Environmental Health/Agency for Toxic Substances and Disease 
  Registry Centers for Disease Control and Prevention, U.S. 
  Department of Health and Human Services........................    19

                     Alphabetical List of Witnesses

Frumkin, Howard, M.D., DrPH:
    Testimony....................................................    19
    Prepared statement...........................................    53
Johnson, Harvey E., Jr.:
    Testimony....................................................     7
    Prepared statement...........................................    31
Ozdinec, Milan:
    Testimony....................................................    10
    Prepared statement...........................................    42

                                APPENDIX

Chart referred to by Senator Landrieu............................    66
E-mail submitted for the Record by Senator Landrieu..............    67
Questions and responses submitted for the Record from:
    Mr. Johnson..................................................    69
    Dr. Frumkin..................................................    75


   IS HOUSING TOO MUCH TO HOPE FOR?: FEMA'S DISASTER HOUSING STRATEGY

                              ----------                              


                        THURSDAY, MARCH 4, 2008

                                 U.S. Senate,      
        Ad Hoc Subcommittee on Disaster Recovery, and      
           the Ad Hoc Subcommittee on State, Local, and    
             Private Sector Preparedness and Integration,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittees met, pursuant to notice, at 10:04 a.m., 
in room SD-342, Dirksen Senate Office Building, Hon. Mary 
Landrieu and Hon. Mark L. Pryor, Chairmen of the Subcommittees, 
presiding.
    Present: Senators Landrieu and Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. I would like to thank everyone for being 
here today, and especially thank all the witnesses. Senator 
Landrieu will be coming in momentarily.
    I would like to welcome our witnesses, fellow Senators, and 
guests to the first joint hearing of the Subcommittee on 
Disaster Recovery, chaired by Senator Landrieu, and my own 
Subcommittee on State, Local, and Private Sector Preparedness 
and Integration. We look forward to your testimony.
    Just as an administrative note, I have to slip out in a few 
minutes. Things are notoriously slow here in the Senate 
sometimes, but things can also change quickly on you if you are 
not careful. And Thursday we got the word that the consumer 
product safety bill will be on the floor this week. So I have 
to race over to the floor in just a few minutes to manage that 
on the floor. I apologize for having to duck out.
    Our two Subcommittees have much in common. Both are 
concerned with preventing and mitigating national catastrophes 
of any kind. Both work to ensure that disaster victims are well 
provided for, either through advance planning or recovery 
programs. And both engage in frequent oversight of the 
Department of Homeland Security and FEMA.
    Today, our two Subcommittees share the goal of 
investigating the preparedness and implementation efforts of 
our country's disaster housing programs. We are particularly 
interested in progress towards the completion of the National 
Disaster Housing Strategy, which was required by the Post-
Katrina Emergency Management and Reform Act. It was due to 
Congress in July 2007, but it seems to be part of a DHS-wide 
habit of delay.
    The importance of the report cannot be understated. It 
provides the big-picture plan to ensure that disaster victims 
are not traumatized twice--first by the event and second by a 
chaotic response. The finished product, we hope, will lay out 
the temporary housing options FEMA can offer to disaster 
victims. It will also address factors such as efficiency, cost-
effectiveness, logistics, and dispersal of responsibilities 
between relevant Federal, State, and local agencies.
    In addition to the Disaster Housing Strategy, we hope that 
this hearing can shed light on the disastrous issue of 
formaldehyde in the so-called toxic trailers. These travel 
trailers, purchased in 2005 in the wake of Hurricane Katrina, 
reportedly caused wheezing and nosebleeds in residents 
beginning in January 2006. Yet FEMA and the CDC were unable to 
agree on a system for testing the trailers and moving out 
residents until nearly 2 years later. This time frame is 
unacceptable. We are eager to probe the circumstances 
surrounding the delays and also eager to learn more about the 
FEMA and CDC plan to use the results of the testing.
    Finally, we look forward to hearing about the progress your 
three agencies are making toward the development and 
implementation of a successful housing strategy. We appreciate 
that your goal is to administer a safe, efficient program to 
help people in the wake of the disasters. We want to know how 
Congress can help you get there.
    I will now turn the hearing over to Senator Landrieu, who 
will Chair for the remainder of the day. Again, I apologize for 
my early departure today, but thank you for being here. And, 
Senator Landrieu, thank you for your great leadership.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Thank you, Senator Pryor, and I 
appreciate you starting the hearing because your time is very 
limited. But thank you for making it a priority to be here and 
for joining me in this Joint Subcommittee hearing to look into 
the housing situation, not only in the Gulf of Mexico but 
around the country.
    Let me ask you, Senator, I have an opening statement, but 
would you like to go forward----
    Senator Pryor. Go ahead.
    Senator Landrieu. OK. Let me open with my statement, and 
then we will take the Senators questions. Let me begin by 
saying I want to inform the panelists and all of those here 
today that we will, unfortunately, not be able to accept the 
oral testimony of the representatives from HUD or CDC. Because 
of your failure to meet the deadline of this Subcommittee, we 
had very little time, if any, to review your testimony. We will 
receive Mr. Johnson's oral testimony because FEMA submitted it 
on time. The rules that the Subcommittee sets are here for a 
reason. Unfortunately, it seems like the agencies before our 
Subcommittee today have not been able to meet many of their 
deadlines regarding this issue. So your testimony will be 
received as part of the record, but your oral testimony will 
not be accepted this morning.\1\ And as soon as I finish my 
oral statement, we will move to you, Mr. Johnson.
---------------------------------------------------------------------------
    \1\ The prepared statements of Mr. Ozdinec and Dr. Frumkin appear 
in the Appendix on pages 41 and 53 respectively.
---------------------------------------------------------------------------
    In the words of Richard Griffin, who is the State 
Coordinating Officer at the Arkansas Department of Emergency 
Management, as reported by the Arkansas Democratic Gazette in 
Little Rock on February 15, he is quoted as saying, ``The bad 
thing is that right now we are really trying to help residents 
impacted by this tornado without having to backtrack and do 
other stuff. It is just a mess.''
    The title of this hearing could be, ``It is just a mess.'' 
There could not be a more appropriate title.
    Senator Pryor and I have combined the efforts of our 
Subcommittees for this hearing in order to highlight and 
examine the many problems with FEMA's Disaster Housing Program 
and HUD's either lack of cooperation, unwillingness, or lack of 
response as well.
    Our effort will not stop here. This Subcommittee has also 
been granted a special reserve budget by the Rules Committee to 
investigate the situation, and we are in the process of hiring 
additional staff to look into it.
    There are both fundamental and specific problems with our 
National Disaster Housing Program. On the fundamental side, 
FEMA and HUD operate disaster housing policies that rely on 
temporary housing to house disaster victims. Yet, with the lip 
service given to housing advocates, nothing or little has been 
done to actually rebuild permanent housing stock, whether 
public or private, for individuals who are receiving temporary 
assistance, especially for individuals who are in the low-
income, high-risk population. That would be lower-income 
families, working families, seniors, people with disabilities, 
etc.
    Fair market rents in the New Orleans area alone--and that 
is just not New Orleans but the area--have increased 45 percent 
since the storms. Families looking for two-bedroom apartments 
now must pay $990 when before it was something around $700.
    Of the 200,000 housing units in Louisiana with major or 
severe damage, 40 percent were rental units. Over half of these 
82,000 rental units were affordable to residents making less 
than $40,000 a year. The Road Home and the GO Zone program is 
only scheduled to rebuild 23,000 rental units, and our last 
check, I am not sure any one of them has yet been built, 
planning to be built but yet to be built. And in New Orleans 
alone, not counting St. Bernard, St. Tammany, Jefferson, 
Washington Parish, Cameron, or Calcasieu, 42,000 affordable 
rental units were lost in the storm.
    Pre-Hurricane Katrina, we had an estimated 6,000 homeless 
in Orleans Parish alone, not counting the other parishes. Now 
we think, according to the Unity of New Orleans that is 
advocating on behalf of homeless, there may be 12,000 homeless 
people.
    Just a few weeks ago, we had the deadliest tornado outbreak 
in the United States in more than 20 years. That situation 
provides an amazing illustration of more specific programmatic 
problems with the Federal disaster housing mechanism. On 
February 5 of this year, more than 100 tornadoes devastated 
communities in Alabama, Arkansas, Kentucky, Mississippi, and 
Tennessee, and more than 50 lives were lost.
    In response to 500 homes destroyed in Arkansas, FEMA 
planned to transport 300 mobile trailers from the Hope storage 
site where they have been sitting for the last 2 years or more, 
in the hot sun, uncovered, to provide people housing. On 
February 14, FEMA was forced to cancel that order of mobile 
homes because the result of the formaldehyde testing by the CDC 
found that the fumes from 519 trailer and mobile homes in 
Louisiana and Mississippi were, on average, five times what 
people are exposed to in most modern homes. This prompted FEMA 
to call for all occupants of trailers to be moved out of them 
because of the potential health impacts. Upon canceling the 
orders, FEMA said the agency would try to place Arkansas 
tornado victims in rental units before they used other options. 
The agency said it would only use mobile homes from Hope, 
Arkansas, after they were aired out and tested, a process 
taking 10 days. These announcements were made on February 14. 
The only thing we can say is thank goodness it is not that cold 
in Arkansas because had this been in Minnesota or Maine, we 
would be in serious trouble.
    On the same day, Julie Gerberding, the CDC Director, said 
families in mobile homes and travel trailers should spend as 
much time outside as possible, ventilate the units by opening 
windows, running fans, and keep the thermostats low. High 
temperature leads to greater release of formaldehyde.
    As a result of the February 5, 2008 tornadoes, 938 families 
were displaced nationwide. Imagine the type of confused 
response in a catastrophic situation with 260,000 homes 
destroyed, which was the situation in Louisiana--and as I 
recall, 100,000 or so in Mississippi.
    You will find that the confusion of the February 5, 2008 
tornadoes was a result, a direct result of FEMA and HUD's lack 
of coherent Disaster Strategy Plan, despite the fact that the 
larger Committee that we sit on mandated such a plan to be 
developed and submitted to the Subcommittee in July, which we 
still have not received, and the number of hearings that have 
been held, both in the House and the Senate, asking for answers 
and for a coherent strategy.
    Since Hurricanes Katrina and Rita have hit, the Federal 
Government has spent over $7.7 billion on individual and 
household programs. The question that needs to be answered 
through this series of hearings is: Where is the $7.7 billion? 
How was it spent? Homeless have doubled, rental units have not 
been built. Where is the $7.7 billion?
    The Government Accounting Office report released in 
November found that in Mississippi, the ineffective FEMA 
oversight of trailer maintenance resulted in $30 million in 
wasteful and improper fraudulent payments. The report cites 
that FEMA in one case wasted $15 million on maintenance 
inspections where there was no evidence that these inspections 
ever occurred.
    Mr. Johnson, that is just one incident. There are several 
that have been reported.
    As this story shows, FEMA's indecision to utilize the 
144,000 trailers as the backbone of the disaster--or decision 
to utilize the trailers is the genesis of a series of these 
problems. So this hearing is going to get into why are we using 
trailers, why are we paying up to $70,000 per trailer to place 
them, what are the standards that we are going to be using for 
temporary safety for these trailers.
    The idea is to have a document that would provide counter-
contingencies, different sets of options for different 
scenarios, and distinct efforts for departments and agencies 
involved. Congress passed that directive in the Post-Katrina 
Emergency Management Reform Act that called for FEMA and HUD to 
work on this plan. It is, as I said, not submitted to this 
date.
    Additionally, unforeseen problems with the Disaster Housing 
Assistance Program (DHAP) have arisen because landlord housing 
disaster victims must sign, it seems like, a new contract with 
local public housing authorities and undergo an inspection 
before they are paid. This has scared a number of landlords off 
and forced tenants to find new apartments. So once they move 
from the trailer to try to find an apartment, the landlords say 
they do not want to comply with the program. So it increases 
the homeless population. This has happened to us in the Gulf 
Coast. It very well could happen in the tornado-affected areas 
as well.
    Today, over 35,000 Gulf Coast residents and Hurricane 
Katrina survivors remain in trailers that may potentially 
expose them to dangerous levels of formaldehyde. The notice 
came on Valentine's day in a press release that said it would 
take steps to expedite the relocation of residents from 
temporary housing to apartments. This is a little too late. One 
woman called our office and said, ``I have been living in a 
trailer with seven children. It has been difficult. I have 
managed, but I actually have a stove to cook on. They want me, 
Senator, to move to an apartment''--I mean--``to a hotel. The 
problem is not only can we not fit in the room, but there is no 
stove for me to cook on for my children. What would you 
suggest?''
    From the confusion and inefficiency of providing housing 
for these tornado victims to all the other examples, it is 
clear that the failure to complete the National Disaster 
Housing Strategy and the absences of leadership in this area 
have left thousands and thousands of hard-working, tax-paying 
American citizens at risk, those that are fighting to rebuild 
their lives and their communities. So these agencies before me 
are responsible, both FEMA, HUD, and the CDC.
    Now, before I conclude this statement, let me say that I am 
not unaware that the States in question--Louisiana, 
Mississippi, and Alabama--have obligations to use the resources 
that we have sent to them to help fix and address this problem. 
I most certainly intend to continue to have a series of 
hearings with State elected officials that will come up and 
talk about how the GO Zones were allocated, what percent was 
allocated to housing, and why not more of it was allocated to 
housing. And we are going to have a series of hearings because 
this is not just about what happened to the people that I 
represent, even though that is clearly the catastrophe of the 
century. But it is also about what is going to happen in 
America if tornadoes continue to strike, which they will, if an 
earthquake hits Memphis, if a tsunami hits Seattle, if a 
Hurricane V hits Long Island like it did in 1938. We do not 
have a plan. And anybody that testifies to the contrary is 
going to be held to a serious line of questioning because 
nothing that I observed indicates to me--and I am in a pretty 
good position to see it, being on this Subcommittee and on 
Appropriations--that there is a comprehensive, coordinated plan 
between the Federal agencies and their State counterparts to 
respond appropriately for housing after a catastrophic 
disaster.
    So I am going to turn it over to Senator Pryor. I am very 
thrilled to have his support. He is a former prosecutor. His 
skills are going to come in very handy. And I would like to ask 
him for his questions first, and then I would like to have the 
opening statement from Assistant FEMA Director Harvey Johnson.
    Senator Pryor. Thank you, Madam Chairman, and, again, thank 
you for your leadership on this.
    I do not think the people of Louisiana and these victims of 
Hurricanes Katrina and Rita have a better friend in Washington 
than Mary Landrieu. She has been a tireless advocate on all 
levels for her home State and for the region. Thank you for 
your leadership.
    I only have one question right now. I do have some 
questions for the record I would like to submit. But if I may 
turn to you, Mr. Johnson, Senator Landrieu and I both 
referenced this National Disaster Housing Strategy that was due 
to Congress in July 2007, so now it is about 7 or 8 months 
late. When do you anticipate that the National Disaster Housing 
Strategy will be released?
    Mr. Johnson. Mr. Chairman, thank you for your question on 
the strategy. Let me say first that we do appreciate the 
tasking from Congress to prepare the National Disaster Housing 
Strategy, and I will address it in a little bit more detail in 
my opening statement. But it really causes us and brings us to 
confront a number of key issues, many of which you have 
mentioned in your comments, and Chairman Landrieu has as well. 
What is our strategy to learn lessons from Hurricanes Katrina 
and Rita? How do we assess responsibilities at the Federal 
level and the State level? How do we recognize and acknowledge 
the differences between a catastrophic event and a lesser 
event? And how do we recognize among the Federal agencies our 
respective roles and competencies to address the challenge that 
we are faced with?
    These issues are very significant and cause a lot of debate 
inside the Administration. We are working this intently, and my 
guess is that we would like to get you the report probably at 
the end of another month from now. But it is not, again, due to 
lack of recognition for the significance or due to lack of 
attentiveness to Congress. I think it really is an 
acknowledgment of the challenge that we all face and that there 
are very few simple answers.
    Senator Pryor. Thank you.
    Senator Landrieu. Thank you, Senator Pryor.
    Let me start with your statement, Mr. Johnson, and let me 
begin by thanking you for taking several trips down to 
Louisiana lately at my request--and others--to visit with the 
local parish officials and State leaders. And as I have told 
you privately--and I would like to say it publicly--we have 
gotten very positive feedback from your visits, and we are very 
grateful for your efforts.
    So, with that, please begin.

     TESTIMONY OF HARVEY E. JOHNSON, JR.,\1\ ACTING DEPUTY 
 ADMINISTRATOR AND CHIEF OPERATING OFFICER, FEDERAL EMERGENCY 
    MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Johnson. Good morning, Chairman Landrieu and Chairman 
Pryor, and Members of the Subcommittee. I am Harvey Johnson, 
the Acting Deputy Administrator and Chief Operating Officer for 
the Department of Homeland Security's Federal Emergency 
Management Agency, and I am pleased to be here this morning to 
discuss our continued efforts and progress in providing 
emergency temporary housing, both currently and in future 
disasters.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears in the Appendix 
on page 31.
---------------------------------------------------------------------------
    Part of the title of this hearing, ``Is Housing Too Much to 
Hope For?'' is a provocative title in view of our experience in 
the aftermath of Hurricanes Katrina and Rita, when the fact is 
that efficient and timely access to safe emergency temporary 
housing should be an expectation easily met for all disasters. 
Yet as is the case with the delivery of other emergency-related 
capabilities, the answer is more complex than is the desire for 
a straightforward yes. And the latter part of the title, 
``FEMA's Disaster Housing Strategy,'' there are two salient 
aspects: First, that FEMA should develop and initiate the 
overall management and the direction of a National Disaster 
Housing Strategy; and that, second--this is clearly a role of 
FEMA leading the implementation of such a strategy is a 
challenge that requires the cooperative participation of other 
Federal partners, States, local communities, nongovernmental 
organizations, the private sector, individual citizens, and 
disaster victims. This is a role that FEMA should share with 
those others.
    Over the last 3 years, FEMA has learned a great deal as we 
have wrestled with this challenge. It has illuminated the need 
for such a strategy. It has made us a stronger agency. It has 
highlighted a requirement for clarity in the roles and 
responsibilities at the Federal level, between the Federal 
level and the State, and provided lessons that will lead us to 
affirm, yes, we can and we will provide efficient and timely 
access to safe emergency temporary housing. That, Madam 
Chairman and Mr. Chairman, is not too much to hope for.
    The National Disaster Housing Strategy must consider the 
types of housing to be used, the differences between interim 
housing versus long-term housing, the responsibilities of the 
Federal Government versus States and localities, and other 
challenges that exist in implementing solutions.
    Importantly, the strategy will convey the national guidance 
and a vision for providing disaster housing assistance. It will 
ensure proper attention to serve all populations and uniformly 
address access issues for special needs and those with 
disabilities.
    While FEMA is beyond the deadline established by Congress 
for submission of this strategy, I offer that our frame of 
reference in time has been somewhat affected by the rise of 
safety issues related to formaldehyde and the imperative that 
we must debate these issues and get them right.
    Let me shift focus for a minute to the Disaster Housing 
Assistance Program. DHAP represents the first time the Federal 
Government has ever sought to transfer responsibility for 
housing, rental assistance, and case management for such a 
large population. As you would imagine, there have been many 
challenges as FEMA and HUD have clarified authorities, ensured 
the right mix of skills and expertise to manage the caseload, 
exchanged a large amount of complex data. Expecting that my 
colleague from HUD will address the program in greater detail, 
I would like to simply observe that HUD and FEMA have been 
working purposefully each day to ensure that the transition 
from one agency to another is as smooth as possible. As we 
continue to make progress in relocating families along the Gulf 
Coast, this program provides a necessary safety net to ensure 
that eligible individuals have a safe and secure place to live 
and that they receive the benefits of compassionate case 
management intended to lead to greater self-sufficiency. We 
expect to engage specifically with representatives from the 
Louisiana Department of Social Services and their counterparts 
in other States to discuss and address the seams between the 
Federal and State programs.
    Finally, I would like to update the Subcommittee on the 
actions that FEMA has taken in the last several weeks in 
response to the formaldehyde in our travel trailers and mobile 
homes.
    I wish to reiterate that FEMA takes very seriously our 
responsibility to provide for the safety and security of 
disaster victims who reside in FEMA-provided emergency housing. 
This is a population that, though it once exceeded 143,000 
households, is now just over 34,000 households. Our primary 
focus is to help those households relocate from temporary 
housing to more permanent solutions as quickly as possible, 
with a goal to focus on the at-risk households who may be more 
susceptible to formaldehyde-related health concerns, with the 
goal to close all of our group sites along the Gulf Coast by 
June 1.
    We believe this task is challenging but achievable. It will 
require that we communicate often and effectively with resident 
households, that we work in partnership with other Federal 
agencies, such as DHAP through HUD, and with State agencies in 
Louisiana and Mississippi, and that we engage the cooperation 
of landlords and apartment owners across the Gulf Coast.
    We have instituted a range of new policies aimed at 
maximizing access to rental units, we have expanded our 1-800 
help line, and we are currently in the process of establishing 
a Joint Relocation Task Force comprised of State and Federal 
officials expressly to identify and work together to address 
the many issues that accompany the relocation of this magnitude 
and the quest for permanent housing and self-sufficiency. We 
will keep the Subcommittee updated as we continue to make 
progress in this endeavor.
    In closing, Madam Chairman, Mr. Chairman, FEMA remains 
committed to providing efficient and timely access to safe 
emergency temporary housing. We intend to complete the National 
Disaster Housing Strategy, offer a broader range of housing 
solutions, and partner more effectively at the Federal and 
State level. Our focus is to better serve communities and 
disaster victims, and we will work purposefully to do so.
    I thank you and I am ready to answer your questions.
    Senator Landrieu. Thank you.
    I want to pursue this report for a minute that was due in 
July, and even according to your testimony and the questions of 
Senator Pryor, we still have not gotten a firm date as to when 
this plan will be submitted to Congress. Do either you or the 
representative from HUD want to address that? And I am also 
going to ask you who is specifically on this task force, by 
name, and who is actually the person accountable to either the 
President or to Congress for providing this report. Which one 
of you is actually? And I do not know who wants to take the 
question.
    Mr. Johnson. I will take the question to begin. I think 
clearly the law in PKEMRA, which was a very valuable piece of 
legislation, designated--it redefined the role of FEMA and the 
responsibilities of the Administrator of FEMA. In large part, 
Administrator Paulison as the director, as the Administrator of 
FEMA, is directly responsible to the President for all matters 
related to emergency management. And so we acknowledge inside 
that report the responsibility to prepare the National Disaster 
Housing Strategy as a FEMA responsibility. And we are working 
with our partners in HUD primarily and with other agencies, we 
are working through the Department of Homeland Security, which 
has a vested interest, and with OMB and other elements of the 
administration to really wrestle with these issues and to 
provide the report.
    Senator Landrieu. But, Mr. Johnson, you can appreciate the 
anxiety on the part of those of us that are trying to provide 
resources to you to help the situation, the difficulty in us 
doing that without some guidance from your agencies. And then 
when we in Congress attempt to provide our own suggestions as 
to how it might be done, we are thwarted by the Administration, 
which says they basically oppose what we suggest, yet will not 
submit what they suggest for us to review and fund.
    So I have got to press you for a tighter answer. When do 
you believe we are going to get the report? And are you saying 
that Director Paulison is the person responsible for submitting 
it by that deadline?
    Mr. Johnson. Yes, ma'am, it is always nice to tie my boss 
to a responsibility. But Administrator Paulison, as the 
Administrator of FEMA, owns the responsibility to prepare this 
document. We own the responsibility to coordinate with other 
Federal agencies and drive this through to a final conclusion 
and decision.
    I would indicate to you that I believe we can try to get 
this report to you by April 1, another month from now. But, 
again, as I think you appreciate, more so than perhaps others, 
these are very difficult issues, and they do require a lot of 
discussion and debate inside the Administration.
    Senator Landrieu. I realize that, but let me just say 
also--and I know that you understand this. I know it is very 
difficult for these Federal agencies. But it could not be 
possibly as difficult as it has been for some of these victims 
of these disasters and what they have had to live through the 
last 2\1/2\ years.
    So I understand it is difficult, but this is not 6 months 
after the storm. This is not a year after the storm. This is 
2\1/2\ years after the storms and the levee breaks, with 
another hurricane season starting in June, with people between 
trailers and apartments and hotels, homeless on the street, and 
a hurricane season starting in June throughout the Gulf Coast. 
And I am not sure what the situation is on the ground in 
Memphis and Arkansas, but I am sure it is not much better, 
other than being not as--the scope of it is not as great.
    So with all due respect--and I started by trying to be 
complimentary of your work with the local parish officials, and 
I do appreciate that and do not take those statements back--
this is a housing crisis.
    I would like to ask HUD: What can you do to expedite, to 
make sure that we meet this goal, to at least get this report 
for a plan to go forward by April?

TESTIMONY OF MILAN OZDINEC, DEPUTY ASSISTANT SECRETARY, OFFICE 
  OF PUBLIC HOUSING AND VOUCHER PROGRAMS, U.S. DEPARTMENT OF 
                 HOUSING AND URBAN DEVELOPMENT

    Mr. Ozdinec. First of all, Madam Chairman, I want to thank 
you for inviting me here today. It is an honor to be before 
you, and hopefully answers to my questions will help inform 
your decisions and your staff as we move forward to make 
adjustments to DHAP and any other involvement HUD----
    Senator Landrieu. Well, we hope so.
    Mr. Ozdinec. Let me just say that the contact person that I 
have at HUD--and I know there are several folks involved in 
this housing strategy on the Subcommittees and working on these 
various issues that the Admiral had mentioned. But my go-to 
person is Jan Opper, by name, and my specific effort as it 
relates to the housing strategy is to define for the folks on 
the Subcommittee what specific role HUD would play as it 
relates to rental assistance, which is really our main focus in 
what we do at HUD. We have been working with the DHS attorneys 
to develop statutory legislation that would outline very 
clearly for you and for the public how that transition would 
actually occur in the case of a major disaster. FEMA would take 
care of the mass care. That is what they are good at; that is 
what they do. The question then becomes the transition of 
families from mass care to more permanent housing. And we 
believe that through our development of the KDHAP program, 
followed on by the DVP program, which you were kind enough to 
provide $390 million to HUD based on our experience with our 
first experiment and demonstrate, followed on by DHAP, which 
still does have problems and kinks to work out, which we do as 
we move forward, those are the basis for which we could run a 
long-term rental assistance program where we can get the 
referrals from FEMA to HUD down in such a way that HUD can do 
what it does best with its housing authorities, which is 
inspect units, place families, do contracts with landlords, and 
provide case management. And that is my part of the National 
Housing Strategy, and I know there are other parts of it, 
Admiral.
    Senator Landrieu. OK. I have a chart here of your 
organizational chart with HUD, which looks confusing, and it 
seems like it is. Who is Jan Opper? Is he the Assistant 
Secretary for Public and Indian Housing?
    Mr. Ozdinec. No.
    Senator Landrieu. OK. Who is the Assistant Secretary? Is it 
Paula Blunt?
    Mr. Ozdinec. It is Paula Blunt. She is Acting Assistant 
Secretary.
    Senator Landrieu. And who is Jan Opper?
    Mr. Ozdinec. Jan Opper works for Nelson Bregon in the 
Community Planning and Development Division.
    Senator Landrieu. That is this person up here?
    Mr. Ozdinec. I cannot see that.
    Senator Landrieu. You cannot see it, OK. But there is 
Assistant Secretary for Community Planning and Development.
    Mr. Ozdinec. OK.
    Senator Landrieu. And that is the Assistant Secretary, and 
he works for him?
    Mr. Ozdinec. No. Jan Opper works for Nelson Bregon, I 
believe. I work for Paula Blunt in the Office of Public and 
Indian Housing.
    Senator Landrieu. OK. Well, let me tell you what we are 
going to need. This Subcommittee is going to start with who is 
on the Subcommittee and who is responsible in HUD and who is 
reporting to whom about who is going to be working with FEMA 
because we just cannot even get off of first base without this.
    Now, we have studied this. Our Subcommittee has looked at 
it, and if we cannot figure it out, I am sure that there are 
very few others that could. And so we are going to get those 
answers. So I would like you to submit who is on this task 
force, who is ultimately responsible, and what your timeline is 
with FEMA to provide this for the Subcommittee. And could you 
also tell us how many vacant positions there are? Because every 
time we look at this chart, we see an acting person or a vacant 
position.\1\
---------------------------------------------------------------------------
    \1\ The chart referred to by Senator Landrieu appears in the 
Appendix on page 66.
---------------------------------------------------------------------------
    Mr. Ozdinec. Yes, ma'am.
    Senator Landrieu. And once we can identify who is on the 
Subcommittee between HUD and FEMA and who is responsible, then 
we can start--hopefully with your cooperation, but we will do 
it without your cooperation--driving some deadlines to get this 
report done and trying to figure out what is holding it up.
    And you can understand what our frustration is because a 
year and a half ago, this Subcommittee, thinking that it was 
going to be helpful, seeing that these trailers were not 
happening, moving in the right direction, provided, as I recall 
$435 million--or Congress did, for alternative housing. And 
that was basically given out to one State, 80 percent of it, 
for a program that they claimed might work--and it is 
Mississippi's Choice--but to me it looks like basically a fancy 
trailer. And we had provided $435 million to your agencies to 
come up with an alternative strategy for housing, and here we 
are a year and a half later, after having already allocated 
$435 million, which is a lot of money--lots of pilots could 
have been tried. We do not still have the report, and that 
money has been spent.
    Do you want to comment please, Mr. Johnson?
    Mr. Johnson. I would just say that certainly we all feel 
your ire on the lack of submission of the report, but please do 
not take that as an indication of lack of activity. As you 
know, and you mentioned the $400 million for the Alternative 
Housing Pilot Program, that now has generated 1,685 households 
in Mississippi that are living in these Mississippi cottages. 
And hopefully by December this year they will be up to 5,000 
units produced between Texas, Louisiana, Mississippi, and 
Alabama. And I think your questions to FEMA specifically, our 
sessions together have focused on issues of housing that have 
been helpful in making progress. While I do not--we certainly 
feel for the families have gone through this the last 2\1/2\ 
years. In fact, they have taught us a lot of lessons learned, 
and so we have captured those. I believe that we have amended 
our policies over the last 2 years, and you are seeing the 
benefit of some of those. So is from HUD, as we recommend--as 
we comment, we are capturing all of that as well. And so I hope 
that we are responsive when we do submit the report.
    Senator Landrieu. I appreciate that, and I do not want to 
keep harping on this report and plan, but I have to say one 
more thing. You are correct, there has been a lot of activity. 
A lot of the activity has been from families packing up their 
belongings and moving from hotel rooms to trailers to out on 
the street, to back in apartments, to being evicted. There has 
been a lot of activity. But it is not resulting in what could 
be a rational, comprehensive, informed public as to what they 
can expect in a disaster. So there is no comfort along the Gulf 
Coast. Do you understand? Even though there is a lot of 
activity, because there is no report and no publicized plan, 
there is no community organization or mayor or police juror or 
public official or governor that could actually stand up and 
give a 2-minute speech to the people in their State or region 
to say, look, if another hurricane comes, this is what we can 
expect. All they know and see is they have trailers with 
formaldehyde, people hitting the limits of $26,000 and they 
cannot go any more, their homeless populations doubling, and 
with all due respect to HUD, in my view what HUD has been good 
at is demolishing what housing there is there--not rebuilding.
    [Applause.]
    Senator Landrieu. Please, no comments from the audience. 
Thank you.
    So to the people that we are attempting to serve, it looks 
extremely bleak. Homeowners are caught in the Road Home program 
and red tape. Public officials do not know what to expect from 
the Federal Government. That is why this report is so 
important, because at least it gives us somewhat of a blueprint 
for people to say this is at least what the Federal Government 
is proposing. Then our governors and our parish officials can 
comment, let us know, and we can fine-tune it and move forward. 
But right now, without that document, people are just flailing, 
and I do not blame them.
    So we want that document by April 1. We want the document 
submitted to the Subcommittee about who is in charge, with 
titles and phone numbers and E-mails so we can address them, 
and let me move on to one other point to you, Mr. Johnson.
    From the time we get this report--also good data is very 
important for the organizations and communities struggling with 
how many people are homeless, where are people. I mean, what 
kind of tracking systemis this. FEMA, according to our 
information, does not now conduct exit surveys on recipients of 
housing assistance. Only about 5 percent of the people 
receiving assistance at the program's peak--I am talking about 
the disaster in the Gulf Coast--are still using FEMA-provided 
housing. So this seems like, if you just took that statistic, 
that we are making progress: 95 percent of the people are not 
using housing; only 5 percent.
    The problem is that because you all do not have an exit 
survey, we cannot tell what the true facts are regarding the 95 
percent of the people that are no longer receiving your 
benefits. What happened to them? Did they purchase a home? Did 
they relocate to another place and have temporary, self-
sustaining housing?
    How can you determine the effectiveness of your assistance 
program with HUD if you are not tracking and have no exit 
surveys of people leaving your programs?
    Mr. Johnson. Well, it is a good question, and I do not 
think we have a survey. That does not mean we do not hear it a 
lot and get a lot of comments back. We do have some sense for 
when people leave the FEMA area of responsibility, where they 
go, but we do meet with the States, and the States have perhaps 
a more close sense because often they have made--for example, 
Road Home, we see people that--an average of 500 a week turned 
back their travel trailer recently because they have actually 
completed their renovations and are moving back into their 
homes. So I think that we probably are not without any kind of 
data, but you are right, we do not have--we do not survey. We 
do not have a systematic way to collect the data, analyze the 
data, and provide the kind of insight that would perhaps be 
helpful.
    Senator Landrieu. Well, if that could be part of your 
report between FEMA and HUD, because for our public officials 
struggling on the ground to make decisions, whether it is 
governors again or parish presidents struggling with providing 
budgets for their units of government, without that kind of 
information it is very difficult for them to make decisions 
about how to allocate whatever bond allocations they might have 
or surplus funding to housing. And it is very difficult for 
nonprofits to get that information as well, and they are 
struggling.
    I am going to get to CDC in a minute, but I have one more 
question about the case management, and I would like both HUD 
and FEMA to respond to this.
    Louisiana has established the Louisiana Family Recovery 
Corps, which our former governor, I think, made a very wise 
decision in creating this Louisiana Family Recovery Corps, 
which was to fill in a real absence of a coordinated case 
management effort. Because as you know, families that are 
displaced, even middle-income families that are displaced, have 
housing needs. They are looking for jobs, trying to get their 
children in school, trying to re-find members of their family, 
locate members of their family that have been dispersed. They 
might have some health issues.
    So the truth of that dictated that there be some new entity 
created that could cross the lines and really minister to 
families where they were, meeting their multiple needs, trying 
to get them back to self-sufficiency. That is my version of 
what the Louisiana Family Recovery Corps does. I am sure the 
professionals can do a better job.
    Our State funded it at $60 million, as I recall, but what 
has HUD or FEMA done to either use their expertise and contract 
with them to continue their work, or create your own entity 
that could do it better, if you think you can? Where are we 
with the wrap-around services so when you knock on the door and 
tell this family you have got to exit this trailer, you hand 
them a card and say, ``Here is somebody you can call that might 
be able to help you''? What card are you handing them? And if 
you are not handing them the Louisiana Family Recovery Corps 
and the Mississippi Homeowners Program, what card are you 
handing them? And I will start with you, please, Mr. Ozdinec.
    Mr. Ozdinec. Thank you very much, Chairman Landrieu. I 
again want to make as clear as I can that HUD's role as part of 
the rental assistance is really authorized by an interagency 
agreement that we negotiated and agreed to with FEMA in July 
2007. We knew from the very beginning, Madam Chairman, that 
this was going to be an important issue for you and the 
Subcommittee and, in fact, the general public in how we would 
be assessed as to our involvement and our ability to help. We 
would need to track families, and we would need to know exactly 
and precisely where they went and what they were doing.
    As a result of that, we had created a case management 
tracking system called TAAG--it is part of my written 
testimony, but I can give you today, of the 30,000 families 
that were originally referred to HUD as part of the DHAP 
program, exactly how many of those families we have been able 
to contact and bring into case management, and a demographic of 
those families, where they are and what they are doing.
    Just for example, of the 15,559 families that are engaged 
in case management today, we know that 81 percent have wages 
and benefits; we know that 77 percent have a high school 
diploma or a GED; we know that 23 percent have professional 
certifications and 14 percent have college degrees.
    Now, this is emergent data. These are families that we have 
been able to contact first, meaning that they had followed 
FEMA's process, they updated their address in FEMA's database. 
So we were able immediately to get with them, and we were able 
immediately to assign a case manager. So this is emergent data, 
and this shows a little different picture, frankly, than what I 
expected. I expected to see the numbers a little lower in that 
regard. Of the 15,559 families, we have done what is called a 
risk assessment on 14,773 already.
    To give a sense of who are going to need the most help in 
terms of where they are today in their personal lives, whether 
it is employment or underemployment, whether it is medical 
issues or disability issues, and what services they can get 
plugged into as we move forward with case management, down to 
the lowest tier, which are families that we have identified 
that have already begun the process of moving on, either moving 
back to New Orleans or living in Texas, or establishing a life 
in Denver. And we see a typical bell curve there, at least on 
this emergent data, where----
    Senator Landrieu. But TAAG, are you all doing this in-
house, or do you contract with a private contractor?
    Mr. Ozdinec. We have contracted with a private contractor 
to purchase the software----
    Senator Landrieu. And what is the name of that contractor?
    Mr. Ozdinec. I do not know that, Madam Chairman, but I can 
certainly get that to you.
    Senator Landrieu. So--excuse me. No comments from the 
audience, please.
    So HUD is contracting with an outside contractor to create 
this case management program. And then at the State level, I 
think both Louisiana and Mississippi have created their own 
programs. How does your program coordinate with what is 
happening with Louisiana and Mississippi's program?
    Mr. Ozdinec. Well, Madam Chairman, thank you very much for 
that question. I have had several conversations with Adam Knapp 
and his staff at length, I guess, in the evening how we could 
work together moving forward here, given the resources that 
they have and the wrap-around resources with what we have, 
which is an assessment tool, and an ability to help families do 
an individual development plan so they can map out for 
themselves where they would like to be a year from now. And 
then those wrap-around services--which my case management does 
not buy. My case management buys about a 1:90 ratio in terms of 
case manager to families. So what we are doing is assessing and 
then----
    Senator Landrieu. Could you explain that a little better--I 
do not understand the 1:90. Your money buys what?
    Mr. Ozdinec. The interagency agreement that we have 
established with FEMA allows HUD to provide enough money to 
housing authorities to do case management for 1 case manager to 
90 families.
    Senator Landrieu. OK.
    Mr. Ozdinec. That is how we assessed what we could do up 
front. Now, in many cases some of our families will not need 
any case management. I have a lawyer in Denver who has just 
decided he is done. We have already got 2,334 families who have 
opted out of the program, 310 have already said they are in 
permanent housing, 132 have actually purchased a home. So we 
know that there is some of that population who will not need 
case management, and so the idea is to focus our energies on 
those families that need it most.
    Now, let me also say, Madam Chairman--and this has been a 
critical point for me and for the Secretary from the beginning 
of this undertaking with FEMA. We know that in this population 
there are senior and elderly disabled families in that 
population that come March 2009, when DHAP ends, because the 
Stafford Act ends its disaster--the Department, the American 
public, the Congress need to make provisions for those 
families--and I use Mrs. Thibodeau all the time for my staff. 
She is 75 years old, worked every day in her life. She has a 
small pension, lived in the Lower 9th Ward. That is the house 
that she was born in. That is the house she inherited. It is 
gone. She is living in Houston. The rent is $1,000 a month. She 
only earns $900 a month in Social Security. Come March 2009, 
how will she be able to pay the rent?
    The Secretary understands this, and you may notice in the 
President's 2009 budget we asked for $39 million in tenant 
protection money to ensure that as we transition the elderly 
and disabled families out of DHAP, we can give them a Section 8 
voucher so that we can pay rental assistance and incorporate 
them into our existing housing choice voucher programs.
    Senator Landrieu. But let's stick with Ms. Thibodeau for a 
minute because I share her story with my staff all the time, 
too. And what I would like to say about Ms. Thibodeau is let's 
say she was from the Lower 9th Ward, and you give her a rental 
housing voucher. There are no apartments in the Lower 9th Ward 
that she can move back to. So her only daughter and son, who 
also own their homes, and her grandchildren, which they were 
one large, happy, extended family, are rebuilding their homes 
in the Lower 9th Ward. But the only thing the Federal 
Government offers her is a voucher where she may have to go 
live in St. Charles Parish or in St. Tammany Parish, far away 
from where her family is, because HUD has not built one senior 
housing unit in St. Bernard, to my knowledge, or the Lower 9th 
Ward in 2\1/2\ years. And to my knowledge, there is not even a 
plan to build housing for seniors in any parish in my State 
that I know of--and if I am wrong, then you can correct me--the 
Section 202 senior housing, and we are trying to get that.
    So I appreciate that you know about Ms. Thibodeau, but I 
hope that HUD will do more than just know about her and will 
put in your budget some plans to build housing for seniors, or 
to submit a plan to us that we could require our States to use 
part of their GO Zone allocation to build housing for Ms. 
Thibodeau and her family because her options are quite limited 
right now.
    Let me ask you this before we get off of this case 
management. How much funding are you testifying to that you 
have for case management? And have you at all entered into any 
agreement or contract or even discussion with the case 
management systems in place in Louisiana and Mississippi?
    Mr. Ozdinec. We utilize our public housing authorities 
across the country to administer all aspects of the program, 
including case management. Housing authorities, as you probably 
know, are local government agencies that have connections to 
the social service apparatus within their communities.
    Senator Landrieu. But do you know the one in New Orleans 
has been taken over by HUD itself, so we do not have an 
independent housing authority in Orleans Parish?
    Mr. Ozdinec. Yes, the New Orleans Housing Authority is in 
receivership with the Department as we speak, and Karen Cato-
Turner is the administrative receiver.
    Senator Landrieu. So you are contracting with yourself for 
case management because they are not in a position to do that.
    Mr. Ozdinec. The housing authority actually contracted with 
the Harris County Housing Authority of Texas to run their DHAP 
program in New Orleans. The Harris County Housing Authority has 
approximately 7,000 DHAP families. They did an outstanding job 
setting up their DHAP center. The city of Houston just did an 
outstanding job accepting families and trying to make them 
welcome into the city, and the Harris County Housing Authority 
really--if you ever get the chance to go to the DHAP Center 
there or, Madam Chairman, go to the DHAP Center now in New 
Orleans, I think you will be surprised at the level of 
professionalism and effort that has been put in to try to 
attract landlords to come in and to basically sign the lease 
addendum and to participate in the program because the rent 
will be paid.
    In New Orleans, for example, our case management provider 
is Odyssey House. I do not know if you are familiar with them.
    Senator Landrieu. No. But they have done a lot of the case 
management leading up to DHAP, and the decision was made that 
they had a tremendous amount of knowledge moving into the DHAP 
process. So the housing authority decided to use Odyssey House 
as their case management arm.
    Let me also say in the second part to your question that I 
have indeed talked to Adam Knapp, and we are in conversation 
about how we can use what they have available to supplement or 
to wrap around our assessment tools and our case management, 
giving them access, for example, to TAAG so that their wrap-
around services can assess the--the assessment is already done. 
The question is now what services are needed?
    Senator Landrieu. So the answer is that you could not 
contract with the local agency in New Orleans because it was in 
receivership, so you contracted with Harris County. Have you 
contracted or made any inquiries to the Louisiana Family 
Recovery Corps, which the State itself set up to do this kind 
of work? Yes or no?
    Mr. Ozdinec. Yes, I have.
    Senator Landrieu. You have contracted with them?
    Mr. Ozdinec. Oh, no. I have contacted them.
    Senator Landrieu. You have contacted them.
    Mr. Ozdinec. Yes. I have not contracted with----
    Senator Landrieu. Have you contacted or contracted with the 
Mississippi group that the Governor of Mississippi set up?
    Mr. Ozdinec. I have not. I have just talked to Adam Knapp.
    Senator Landrieu. OK. Just for the record--and I appreciate 
what Harris County has done. I have spoken to the Mayor of 
Houston several times and continue to thank him for the good 
work that he is doing. But I will say this: The city of Houston 
was an intact city. The population of Houston is several 
million, very strong economy, very low unemployment. They were 
a perfect city to absorb some of our people, and we are 
grateful for it.
    But rebuilding the Lower 9th Ward, Lakeview, Gentilly, St. 
Bernard, Cameron, and parts of St. Tammany are wholly different 
when you are rebuilding a community of housing for people than 
putting them in apartments in an already vibrant, ongoing, 
established city.
    Mr. Ozdinec. I agree with you, Madam Chairman.
    Mr. Johnson. Madam Chairman.
    Senator Landrieu. Go ahead.
    Mr. Johnson. You asked me to go down to New Orleans and to 
meet people, and I have done that twice. And one of the results 
of that is to get a sense for case management and the gap that 
might exist between our case management and what the State 
desires. And in the audience today is Lisa Woodruff-White, the 
Deputy Secretary Attorney for the Louisiana Department of 
Social Services, and she has almost as much passion as you do 
for case management. And we have agreed to meet between FEMA, 
HUD, and the Department of Social Services and to understand 
what the gap is between case management, as Milan describes, 
and case management as the State would like to see it, and to 
see what we can do in terms of working through HUD and the 
State to fill in those gaps.
    So I think there is room here that we can----
    Senator Landrieu. Well, thank you, Mr. Johnson. I think 
that would be very helpful because we say we want to honor the 
work of the State and parishes, but yet we continue to create 
programs with limited funding that do not seem to acknowledge 
the investments the State and the parishes have already made 
because, of course, it is in their interest because these are 
their citizens that are with them every day. So I thank you. I 
would urge you to pursue it. But I would like to know how much 
funding do you have allocated for case management, just so that 
we can get this on the record. Do you have any money allocated 
for case management in your budget? And how much is in HUD's 
budget?
    Mr. Johnson. FEMA had no role in case management prior to 
PKEMRA. With PKEMRA you gave us that responsibility, so we have 
a pilot project now with HHS to look at case management, and as 
we indicated in the testimony, through our MOA with HUD, we 
provide them funds for case management, and those come from the 
Disaster Relief Fund. So our effort to follow on to that and 
perhaps work with the State and expand that effort would be 
funded from the DRF.
    Senator Landrieu. So you have a rough estimate of how much 
you have budgeted for this?
    Mr. Johnson. I do not.
    Mr. Ozdinec. I do.
    Senator Landrieu. Go ahead.
    Mr. Ozdinec. First of all, allow me to correct my 
testimony, Madam Chairman. It is actually 1:50, not 1:90, which 
actually translates into $92 per family per month. That is what 
our IAA says. That is what we provide the housing authority. So 
that breaks down--the entire IAA between FEMA and HUD for case 
management, for rental assistance, and for administration is 
approximately $597 million, starting from September 1, 2007, to 
March 2009. And that is for everything.
    Of that number, we spend approximately $2,760,000 per month 
on case management. That is $92 per person per month.
    Senator Landrieu. OK. You spend $2 million per month----
    Mr. Ozdinec. $2.7 million.
    Senator Landrieu. $2.7 million, in the Gulf Coast or the 
whole country?
    Mr. Ozdinec. In the entire country.
    Senator Landrieu. In the whole country, $2.7 million a 
month.
    Mr. Ozdinec. Correct.
    Senator Landrieu. And what was the $597 million number?
    Mr. Ozdinec. That is the entire amount of the IAA, which 
includes case management at $2.7 million a month; it includes 
administrative costs for housing authorities to be able to 
administer, do the inspections, do the paperwork, do the 
contracts; and it includes the rental assistance payment to the 
landlord. Obviously, that is the largest amount of that $579 
million.
    Senator Landrieu. OK. Would you break down for us, submit 
the amount minus--take the $597 million and minus your payments 
to landlords.
    Mr. Ozdinec. Sure.
    Senator Landrieu. And just get into what we are spending to 
either contract with hopefully appropriate private entities or 
nonprofit entities to do the kind of counseling and wrap-around 
services necessary because I want to get to the bottom of how 
much is allocated and, if we need more money, ask Congress for 
some if we have confidence that it will be spent correctly and 
well to get help to these families that, with just a little 
counseling and a little support, might actually be able to find 
housing and a situation on their own at no government subsidy.
    Mr. Ozdinec. We agree.
    Senator Landrieu. So it is just like anything. A little bit 
of prevention is worth a pound of cure, and some of these 
families are very able, with a little bit of assistance, to be 
able to actually get into a very self-sufficient mode. But they 
do not have the money to hire lawyers, accountants, to explain 
the rules and regulations to them, etc. I do not have to go 
into that.
    Mr. Ozdinec. We agree, Madam Chairman, and we would be 
delighted to provide that for you.
    Senator Landrieu. Let me ask CDC--if I can get to the 
questions for CDC. Excuse me just one minute.
    [Pause.]
    Senator Landrieu. Thank you for being so patient, Mr. 
Frumkin, while we went through that. But a large part of this 
hearing is about the trailers and the formaldehyde situation, 
and you all are in the middle of this discussion.
    When did FEMA first inform the trailer residents of the 
potential danger of formaldehyde testing? Do you know, Mr. 
Johnson? That question is to you. And then I will ask you when 
you first heard of it.
    Mr. Johnson. The issue first arose in probably the spring 
of 2006 and not long after we began to recognize the occurrence 
of formaldehyde issues, we created a website which we put 
formaldehyde information on. We created one of the first of a 
number of flyers that we distributed to households on 
formaldehyde and then began to consult with EPA, with CDC, and 
others,
    So we began, I think, being transparent and raising the 
issue and offering advice to residents back in the spring of 
2006.
    Senator Landrieu. And, Mr. Frumkin, tell us when it became 
apparent to you all or when you all were asked to step in.

  TESTIMONY OF HOWARD FRUMKIN, M.D., DRPH, DIRECTOR, NATIONAL 
CENTER FOR ENVIRONMENTAL HEALTH/AGENCY FOR TOXIC SUBSTANCES AND 
 DISEASE REGISTRY CENTERS FOR DISEASE CONTROL AND PREVENTION, 
          U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Frumkin. The initial approach to CDC from FEMA came in 
the middle of 2006, and that was an informal approach staff to 
staff. And that was the beginning of--actually the part of CDC 
called ATSDR engaged the issue at that point.
    Senator Landrieu. OK. And go on, explain a little bit more 
about that.
    Dr. Frumkin. During the second half of 2006, staff at ATSDR 
played a small role in a planning process that EPA and FEMA 
carried out that led to testing of unoccupied trailers at the 
end of 2006, and we issued a report on those results in early 
2007.
    Then as 2007 went on, we became more and more engaged in 
the formaldehyde issue and eventually undertook the larger 
study that the written testimony we have submitted describes.
    Senator Landrieu. All right. Then are you familiar with 
this July 19, 2006 hearing? It was before the Oversight and 
Government Reform Subcommittee. Secretary Paulison said that 
FEMA had been proactive in reviewing the situation, has 
recommended a wide range of actions to reduce health risk, has 
been working with experts to better understand the health 
environment, investigates short- and long-term solutions. He 
went on to say at that hearing, ``I wish to make it very clear 
that the health and safety of residents has been and continues 
to be our primary concern.''
    And then in a June 1, 2006 E-mail, I think to you, Mr. 
Frumkin, Dr. Christopher De Rosa, Director of the Division of 
Toxicology, said, ``We should be very cautious about the use of 
the word `safe' in reference to formaldehyde. Since it is a 
carcinogen, it is a matter of science policy. There is no safe 
level of exposure.''
    Do you have any understanding or memory of this memo? Can 
you try to explain what happened between FEMA and you all when 
the incidents, people were coming, reported being sick and how 
you all tried to handle it?
    Dr. Frumkin. Well, if we could take it back to the middle 
of 2006, our staff were approached by FEMA staff and asked to 
assess a data set that was being collected by FEMA and EPA 
regarding levels in the trailers. Our staff prepared a report 
on the test results when we received those results in December 
2006 and issued that report in February 2007.
    That report was part of our emergency response approach to 
the post-Katrina situation. It was prepared by emergency 
response staff, and in retrospect, it did not adequately 
address the potential long-term hazards of formaldehyde 
exposure. We recognized that very soon after the report was 
issued and sent a corrective letter to FEMA in February 2007, 
shortly after the report itself came out.
    As 2007 went on, into the spring and early summer, it 
became clear that the report had failed to do what we needed it 
to do. It did not adequately explain the long-term health 
implications of formaldehyde exposure, and it was subject to 
misinterpretation.
    So in the summer of 2007, we made the decision that the 
report needed to be fully renovated and replaced, and we did 
that during the summer and released a replacement report late 
that summer.
    Senator Landrieu. All right. I would like to submit this 
document to the record. This is an E-mail from Christopher De 
Rosa outlining about the statement I made--it goes on, ``We 
should be very cautious about the use of the word `safe' . . . 
'' I will submit that to the record.\1\
---------------------------------------------------------------------------
    \1\ The information submitted by Senator Landrieu appears in the 
Appendix on page 67.
---------------------------------------------------------------------------
    When this was going on between FEMA and HUD and CDC--I do 
not know if HUD was involved in this, but between FEMA and CDC, 
was there any meeting called by the Gulf Coast Coordinator of 
Recovery or any high-level person in the White House about 
trying to figure out what was happening, if there were, in 
fact, toxic levels and what was the problem? Or was this just 
done between your agencies?
    Dr. Frumkin. I am not aware of any higher-level meetings.
    Senator Landrieu. Are you aware of any higher-level 
meetings?
    Mr. Johnson. I am not aware of any specific meeting. What I 
would say is in the summer of 2007, in particular, I think that 
is the point that the formaldehyde issue got a lot more 
visibility, and perhaps at that point--absent hindsight, but at 
that point everyone began to recognize the challenge that it 
presented, and so there was a lot of discussion at various 
levels as to what course we would follow. And as Dr. Frumkin 
indicates, that ultimately led to an MOA between FEMA and CDC, 
one part of which is the study--the scientific analysis of the 
519 housing units that brought us to where we are now. But 
there has been a lot of discussion to make sure that all our 
folks are on the same path between the Department, FEMA, and 
CDC.
    Senator Landrieu. OK. Do we have some understanding at this 
point--and this question is to anyone that can answer it--as to 
if there is a difference between the formaldehyde levels in 
regular mobile homes that are constructed and built and sold in 
the United States and the trailers that are provided by FEMA 
for victims or survivors of disasters, what the difference is? 
Because, obviously, thousands of people live seemingly safely 
in mobile homes that use some of the same materials. Does 
anybody want to comment about how these trailers are different 
than the mobile homes and why there was no standard of health 
safety when the program of trailers was instituted?
    Dr. Frumkin. I can get started with that, Senator.
    Senator Landrieu. Go ahead.
    Dr. Frumkin. There really are two distinctions that I think 
you raised in the question. One is between trailers and mobile 
homes, and the other is between the units that were supplied by 
FEMA in the aftermath of the disaster and the larger universe 
of units that are in use nationally.
    So, with regard to the distinction between mobile homes and 
trailers, the small travel trailers, according to the data that 
we have just released, and prior data, have higher levels of 
formaldehyde than larger units. That is presumably----
    Senator Landrieu. And these are for all travel trailers, 
even those that people buy off the private lots to connect to 
their SUVs to travel around the country?
    Dr. Frumkin. The data that we have available--and it really 
is not encyclopedic or thorough data. But the indications that 
we have are that smaller units are going to tend to have higher 
levels than the larger units, presumably----
    Senator Landrieu. So this is true for FEMA-bought trailers 
and for privately bought trailers for recreational use?
    Dr. Frumkin. We have good information that we have just 
released in the last few weeks on the FEMA-supplied trailers in 
this particular setting. We have less complete information 
about the larger universe of units. But the information that we 
have suggests the same pattern.
    Senator Landrieu. OK. Is there--and I am going to let you 
continue, but is there a standard for safety for the larger 
mobile manufactured homes and there is an absence of one for 
the smaller? Or there are no standards for either type of 
manufactured housing?
    Dr. Frumkin. The larger units are considered housing, and 
those are regulated by HUD. The smaller units are considered 
transportation. And to the extent that they are regulated, it 
is by the Department of Transportation.
    Now, with regard to the air quality, HUD does address that 
issue in its regulations, not by regulating the levels of 
formaldehyde that are permissible in the air, but by regulating 
the amount of formaldehyde that can off-gas from the components 
that go into building the trailers.
    Senator Landrieu. And what causes the formaldehyde in the 
trailers? Is it the adhesive in the plywood or wood products?
    Dr. Frumkin. The particle board that is used to make the 
trailers. It goes into the walls, the floors, the furnishings. 
That particle board uses a matrix that off-gases formaldehyde. 
It is an organic chemical matrix that off-gases formaldehyde.
    Senator Landrieu. So go ahead. So the smaller ones have 
higher levels of formaldehyde.
    Dr. Frumkin. The small ones have higher levels probably 
because they are smaller and less well ventilated, and so you 
have got an enclosed space where there is more opportunity for 
the off-gassing from the materials to enter the interior 
environment and stay there.
    Now, we are most confident about that statement with regard 
to the sampling set that we just released. I have to emphasize 
that the results that we just released may not be generalizable 
to other trailers in other settings. So my answer about that, 
in general, travel trailers may have higher levels than mobile 
homes does not come from the data that we just generated. It 
comes from years of research that has been done around the 
country on levels of formaldehyde in----
    Senator Landrieu. So we knew this long before, that the 
smaller trailers had higher levels.
    Dr. Frumkin. We know that there were problems with 
formaldehyde in various units back as early as the 1980s, and 
to tell you the truth, that problem seemed to have receded in 
recent decades because of construction and design changes in 
those units.
    Senator Landrieu. So was there some kind of extraordinary 
production that occurred that caused this increase? Or was it 
just there were more trailers for us to study, more travel 
trailers?
    Dr. Frumkin. It is a good question, and we have asked that 
many times. I do not think we have information on specifics of 
construction preceding this episode?
    Senator Landrieu. Even before this formaldehyde issue was 
raised, I was very perplexed as a Senator as to why FEMA even 
used travel trailers for housing people, specifically because 
after they were issued, they were told that they could not be 
moved. So the idea of having a trailer that is movable in the 
event that there was another storm, you could attach it to your 
car and move, I thought might have made some sense. But then 
the Federal Government issued a warning or a directive that 
those trailers were not to be moved under any circumstance 
because they could not be part of this massive evacuation 
because then you would not only have cars on the highways, but 
you would have every car with a trailer.
    So do you know, Mr. Johnson, where FEMA got this original 
idea to use travel trailers in the first place?
    Mr. Johnson. There are, again, several issues in your 
question. I would say that FEMA has used travel trailers and 
mobile homes for decades----
    Senator Landrieu. I am not talking about mobile homes. Just 
travel trailers.
    Mr. Johnson. We have used travel trailers----
    Senator Landrieu. Let's focus on travel trailers.
    Mr. Johnson [continuing]. For decades, and they have been 
viewed as an ideal unit because they were small, they could fit 
into driveways, they were mobile to get to a location. In the 
Gulf Coast in particular, because of the hurricane season, when 
we installed those, we installed them and tied them down so 
that, in fact, they would not become a wind hazard if they were 
either left behind and caused more trouble. And as you know, 
one of the biggest issues in trying to encourage people to 
evacuate is the road condition, particularly when they go to 
contra flow. And if there were a number of trucks or cars with 
travel trailers, that would just exacerbate the challenge we 
already have with evacuation.
    So I think there were good reasons to use travel trailers, 
and successful use for decades. I think the situation here is 
that we have never had a disaster where we have used travel 
trailers, where people have resided in them for such a long 
period of time. And I believe that conspired--and one last 
issue. While we are focused on formaldehyde, inside those 
units, whether people smoke or do not smoke, what kind of 
cleaning products they use, how they cook, all those exacerbate 
the air quality, and in some cases even exacerbate the off-
gassing of formaldehyde.
    So, really, it is a complex issue that we understand better 
now, and since July, Administrator Paulison has not permitted 
travel trailers to be used at all in any disaster, even though 
we have them new in our inventory. And so I think we have all 
learned a lot more and are more sophisticated in how we use 
those.
    Senator Landrieu. All right. Let me ask this question, back 
to you, Mr. Frumkin. With CDC's own scientists raising safety 
concerns, why did CDC and FEMA not begin testing immediately? 
There are organizations that did some of their own testing. I 
am sure you are aware of the Sierra Club's test. They were able 
to conduct testing that found 88 percent of their test 
population were far above the average in terms of exposure.
    Why did it take CDC and FEMA until February 2008 when this 
initially came to you in 2006 and you said that you were aware 
of formaldehyde in trailers for a long period of time, back 
to--what did you say?
    Dr. Frumkin. The literature goes back to the 1980s.
    Senator Landrieu. To the 1980s. So the literature goes back 
to the 1980s. This issue raised itself in 2006. And then our 
studies did not start until 2008 when other groups had 
indicated they had found some high levels of exposure. What 
happened there?
    Dr. Frumkin. Well, to clarify the timeline, the concerns 
arose in the first half of 2006, and our engagement began in 
the middle of 2006 when we participated with EPA and FEMA in 
planning the testing that then took place at the end of 2006.
    But that said, I must tell you that, in retrospect, we did 
not engage the formaldehyde issue as aggressively and as early 
as we should have. In the immediate period coming out of the 
disaster, we were extremely engaged and performed a lot of 
services in the region, and we addressed issues that we knew at 
the time were environmental health priorities. We addressed 
issues of toxic contamination in the ambient environment. We 
looked at risk of electrocution and carbon monoxide poisoning 
related to re-entry. We helped clear schools for re-entry and 
so on. Very good knowledge that those were expected problems, 
and we engaged them and did very successful work on them.
    Formaldehyde in trailers did not rise to the top of our 
priority list at that time, and if I could roll the tape back, 
I would change that. I wish we had engaged the issue earlier 
than we did.
    Senator Landrieu. Does anybody want to add anything? Does 
HUD have any responsibility at all or involvement in this?
    Mr. Ozdinec. Well, Madam Chairman, I knew you might ask 
this question, and I did a little research. We have a number of 
organizations within HUD that regulate formaldehyde, or at 
least regulate manufactured housing, and that is our Policy 
Development and Research, Community Planning, and our Safe and 
Healthy Homes. It is not my expertise, but we do indeed govern 
the manufactured housing industry. I understand a package of 
proposed revisions to HUD's construction and safety standards 
is being developed by HUD with the Manufactured Housing 
Consensus Committee (MHCC). The MHCC is a Federal advisory 
committee that was established by Congress to recommend 
revisions to HUD's construction and safety standards. Its 
members include industry representatives, consumer 
representatives, and public officials. We will be happy to get 
back with you if you have any other questions or want 
information about that committee.
    Senator Landrieu. OK. We would like you to submit the names 
of the people on that committee, if you would, and also their 
timeline about when their report is due.
    Mr. Ozdinec. OK.
    Senator Landrieu. All right. Mr. Johnson, given this 
situation, as you know, there are going to be other hearings on 
the House side. I think Congressman Waxman is going to be 
getting into the specifics of these trailer contracts, and we 
will do some of it here. And I am very interested in that, but 
I am really interested in trying to get this general housing 
plan for thousands of people, as I have said--homeowners, 
renters, middle-income families, poor families, and 
particularly those families who are very fragile, whether they 
are part of the disabled population or seniors.
    What can you tell this Subcommittee to give us--besides the 
report that is coming, what have you done administratively to 
try, without waiting for Congress, to get a sense of trying to 
get these families to some stable housing initiatives? What are 
you doing and what is your team doing? Because we have talked a 
lot about levees, we have talked a lot about project and public 
work order sheets, which you have been very focused on, and we 
appreciate that. But besides the disaster of red tape of public 
assistance work sheets, which are going on all throughout the 
Gulf Coast, the backlog, this housing situation is truly a 
crisis at this--it always has been in the last 2\1/2\ years, 
but it still is. So what are you doing administratively, or 
what could you do administratively?
    Mr. Johnson. Well, we are doing a lot. I mean, you are 
generally interested most in outcomes, and so I think that we 
have done a good job in developing an aggressive plan to 
relocate families, households from travel trailers and mobile 
homes into apartments and other forms of permanent housing. As 
we indicated in the opening statement, we have gone from 
143,000 families in mobile homes and travel trailers to about 
34,000, and that is good progress.
    We started a program several months ago to close the group 
sites in Mississippi and Louisiana, and that has been a process 
where we started with about 82 group sites, and we currently 
have about 40 group sites. So we have reduced the group sites. 
Just since January, we have moved 800 households out of group 
sites into apartments and other affordable housing. And in 
doing that process, it has been almost seamless and without any 
adverse reportings in the media or anywhere else. We have moved 
those families into the same neighborhoods with the same 
schools, same work, same church. They have helped identify the 
apartments. We have given them choices as to which ones they 
want to go to. We have begun to work with landlords to 
encourage more landlords to participate in the program. And so 
our focus is really to relocate those households out of those 
mobile homes and travel trailers into the apartments, and that 
is our primary focus.
    Senator Landrieu. Do you know how many landlords you have--
and if you do not, if you could submit this. To date, how many 
landlords are participating in this program by parish and by 
county that you could submit to us just so that we can get a 
handle on that?
    Mr. Johnson. We can do that.
    Senator Landrieu. OK. And then you pay a Section 8 voucher 
to these landlords, or is it more than Section 8 provides? Are 
there any income limits to that?
    Mr. Johnson. As we talked about earlier with the DHAP 
program, we work hand in hand with HUD on how we pay for and 
are transitioning FEMA payment through our contractor into DHAP 
and the use of HUD's public housing authorities. In some 
locations, we typically would use the fair market rent (FMR).
    But because we needed to find more apartments, we have gone 
up to 150 percent of the FMR in Louisiana and particularly in 
Mississippi where the housing stock has not----
    Senator Landrieu. But are there income limits based on the 
families that qualify for the programs that you are describing?
    Mr. Johnson. There are.
    Senator Landrieu. What are those income limits?
    Mr. Johnson. We can provide that to you for the record. I 
do not know exactly what they are, but people must be 
recertified and be an eligible applicant in order to stay in 
the Federally subsidized housing.
    Senator Landrieu. OK. Do you think it is something around 
130 percent of poverty or 150 percent of poverty, something 
along that line?
    Mr. Johnson. I would ask HUD----
    Senator Landrieu. Does anybody know from HUD?
    Mr. Ozdinec. Madam Chairman, under DHAP, we have no income 
requirements. We pay 100 percent of the rent, whatever the rent 
may be.
    Senator Landrieu. To any family of any income?
    Mr. Ozdinec. Provided that FEMA has referred that family as 
being eligible for the program under the Stafford Act. We are 
indeed an agent--I can walk you through the context of what our 
work entails in terms of that $579 million and the IAA.
    Senator Landrieu. But let me get this clear for the record. 
Any family that qualifies for Stafford Act assistance is 
entitled to 100 percent of their rent, with no income 
limitations to the family. Is that what you all are testifying?
    Mr. Ozdinec. Correct, with one exception. In the DHAP 
program, as we designed the program in August 2007, we said 
that every family in DHAP starting in March 2008 would begin to 
pay rent as a preparation for self-sufficiency. In March, the 
rent would be $50--their portion--and then we would pay the 
rest. In April, their portion would be $100, and then we would 
pay the rest. In May, their portion would be $150, and so on 
and so on, until March 2009 when the family was paying the 
entire amount of rent and the program ended, so that we did not 
just end the program abruptly in March 2009. During that 18 
months or that year, we would be working with that family 
through our case management, through the wrap-around services, 
to help them become self-sufficient and get back to paying 
their own rent or move into homeownership or make that next 
move.
    Senator Landrieu. OK. But to be clear, the people that are 
eligible, the families eligible for this, are basically 5 
percent of your total roll, right? The current eligibles are 5 
percent of what it was at its peak?
    Mr. Johnson. Correct.
    Senator Landrieu. OK. So for 95 percent of the people who 
are no longer on FEMA rolls, this does not apply. It just 
applies to the 5 percent that still are.
    Mr. Ozdinec. That FEMA has referred to HUD.
    Senator Landrieu. That FEMA has referred to HUD. But FEMA 
does not have any exit memos, or they have already testified 
they do not really have data about what happened to that other 
95 percent, which is problematic because we are not sure--not 
only when we are perhaps meeting the needs of the 5 percent 
that are left, we really do not have any way to figure out of 
the 95 percent that are no longer FEMA eligible, how many of 
them actually moved on to self-sufficiency or how many of them 
are barely holding on by their fingernails or how many of them 
are homeless. We do not have any way to know that. This is a 
problem, and we have to solve this problem.
    The other problem that I see is this: People who stepped 
up--and this is a broad statement, but hundreds of families 
that stepped up, dug into their own bank accounts to elevate 
their homes when their neighborhoods were destroyed--the 
government could not get its act together, and raised this 
home, these families, 3 feet to 6 feet; they are all over the 
region--are being told that they acted precipitously and that 
they took their situation into their own hands and so we cannot 
reimburse them for elevating their homes.
    Families that actually pulled themselves together and the 
husband left and went to Illinois to get a job, the wife 
returned back to teach school in St. Bernard, where all the 
schools were destroyed, and lived in a travel trailer, is no 
longer FEMA eligible, is told that her rent cannot be paid if 
she moved her family into an apartment because she is not FEMA 
eligible anymore.
    I cannot express to you how extraordinarily frustrating it 
is for people who are doing more than they could ever be asked 
to do, but your rules are not allowing us to reward people for 
their own self-initiative, to recognize that it is not just 
poor families but middle-income families, police officers, 
nurses, firefighters, doctors who are struggling here. And 
every time Congress--at least I try, and others, to change the 
rules, we are told we cannot change the rules or bills get 
stuck in committee.
    So this Subcommittee is going to continue to meet to get to 
the bottom of it, but after a catastrophic disaster, help has 
to go to everyone, not just the low-income but the middle-
income, scaled down appropriately, but more resources have to 
be given to help the low-income that have less ability to hire 
lawyers, less ability to hire accountants, and less ability--
and that is the way it should work, where everybody gets some 
help, there are longer periods of time to help after a 
catastrophic disaster, and, most importantly, there are good 
choices for people to make for themselves and their families, 
so that government is not dictating to them but giving them 
choices.
    That is not the program that we have, so you can understand 
the frustration of those of us that are trying to represent 
them to the best of our ability.
    Mr. Ozdinec. And, Madam Chairman, if I may say this, an 
outstanding statement, and I do not think we could agree with 
you any more than that, and that is our goal certainly with the 
group of families that FEMA has referred to us. And we will 
continue to do our level best to do exactly what you just said 
because that is why we have been asked to be part of this 
process.
    Senator Landrieu. OK. Well, I am going to ask you all for 
final statements, and if there are any other questions that I 
need to get on the record. But I hope that it starts with this 
report that will start April 1 to outline how we can fix the 
rules and regulations to meet the needs of people that are 
getting knocked on their doors, tell them to leave these travel 
trailers with toxic levels of formaldehyde, to people that have 
tried to elevate their homes that cannot get reimbursement 
because the government decided that they did not get approval 
from EPA before they elevated their home, and EPA can only give 
approval to two homeowners a month because that is all that 
they can do to oversee this program; and to families that are 
literally homeless in our streets, the homeless families, the 
senior citizens we have not built units for.
    So this program I hope will come with an April 1 deadline, 
but it also better be attached to funding. And I want to put 
the administration on notice. This is to the Bush 
Administration. If that report shows up at Congress without 
reasonable estimates for funding, this Subcommittee and others 
will push this funding through Congress to fund a true case 
management program, a true assessment program to find out where 
these 95 percent of the families are, the studies that have to 
be done for the formaldehyde and funding for CDC. This is no 
longer going to be tolerated--recovery on the cheap, or 
recovery by wasteful spending. And that is all we have been 
chosen--either wasting the money on things that do not work, or 
programs that have no financial backing to make them work.
    So that is the goal besides finding out if there was 
anything done wrong, if there was any fraud, if there was any 
gross neglect on the part of these agencies. That is also the 
subject of this Subcommittee's hearings.
    All right. We have a few minutes for final questions. Why 
don't we start with you, Mr. Frumkin, since you have gotten the 
least bit of time.
    Dr. Frumkin. Senator Landrieu, just to thank you and the 
Subcommittee Members for your interest in this area and your 
commitment to safe and healthy and adequate housing for all 
Americans. It is something that we very much share at CDC. One 
of our agency-wide goals is safe and healthy housing, and that 
applies not only to the post-disaster situation, but to all 
Americans across all income brackets.
    We do think that the data we have just provided will be 
very helpful in helping understand where some of the hazards in 
post-disaster housing reside, and we hope that it will help us 
move forward toward better, safer housing for all those who 
need it.
    Thank you.
    Mr. Ozdinec. Again, thank you, Madam Chairman, for inviting 
me. It was an honor to be here. And I just want to say that as 
the person that runs the largest rental assistance program in 
the country, a $16 billion a year Section 8 program with 24 
agencies across the country, I think we are well suited 
administratively to be able to provide rental assistance and do 
the things that HUD does well in relief and long-term housing 
for FEMA. And I would also like to thank the public housing 
authorities, the 344 public housing authorities that stepped up 
to the plate and decided to participate in DHAP, a brand-new 
program, and provide rental assistance to families that they do 
not traditionally provide that rental assistance.
    And I do want you to know that we as an agency and my staff 
are committed to doing the best that we can given the 
resources, and if there are things that we are not doing well, 
I would like to know about them, and we need to make 
adjustments. And if we are called upon later to do something 
very similar, I want to make those adjustments now so that we 
can prepare for the day when there is another need for long-
term rental assistance.
    Senator Landrieu. Well, Mr. Ozdinec, I appreciate your 
comments, but I have to say as Chairman, the verdict is still 
out on the job that HUD is doing. And I appreciate your 
willingness to work with us, but the verdict is still out on 
HUD. I do not think there would be--if you took a survey in 
Louisiana right now, or perhaps Mississippi, about what HUD has 
done, you might not get a 5-percent approval rating. I am not 
sure what I would get, but I do not know if you would get a 5-
percent approval rating. So let's just keep working at it.
    Mr. Ozdinec. I agree. Thank you.
    Senator Landrieu. Mr. Johnson.
    Mr. Johnson. Madam Chairman, thank you again for beginning 
this series of hearings. I think that from FEMA's perspective 
there were a lot of mistakes made across the board in Hurricane 
Katrina. And our objective has been to learn from those 
mistakes, and I believe that we have done that to the benefit 
of the residents in Louisiana and Mississippi, and all the 
disasters that have occurred since then. FEMA's performance in 
the California wildfires, the tornadoes in Tennessee and 
Arkansas, the ice storms in Oklahoma, the floods in the Midwest 
and the Great Lakes area--all of those have gone very well, and 
in large part learning the lessons that we gained from 
Hurricane Katrina. And that is our focus in our comments today. 
Our focus on developing the National Disaster Housing Strategy 
is to build on that and to provide better response, better 
recovery. And I believe that we will be able to do that, and 
these hearings will probably be helpful in that regard.
    So thank you very much.
    Senator Landrieu. OK. I thank you all. I just want to read 
into the record before we wrap up because we are going to have 
a series of hearings, and some of the future questions that we 
are going to be asking is about the allocation of housing 
dollars: When we allocated money to the States, how much of 
that money went to housing, who made those decisions, and why 
these decisions were made. And so that will be the subject of 
one of our hearings to come, and we are going to hone in on 
some more of your administrators from HUD about how this case 
management is going to be handled, and then, of course, honing 
in more about the outcome for residents of trailers and the 
future use of trailers and mobile homes in disasters.
    So there is a lot more that has to be done, but I thank you 
all. Please submit in writing your testimony, and please 
remember to get that testimony in. Our rules are 48 hours. But 
because of this situation, we even said just get it to us 24 
hours in advance. The Senate Rules are 48 hours; we said just 
24 hours. You still did not even meet that timeline. It gives 
us time to evaluate what you are saying so that we can 
formulate the proper questions to give the public the true 
story, not just the spin of people that come before the 
Subcommittee.
    The record will be open for 15 days for anybody that would 
like to submit documents, and the meeting will be adjourned.
    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 41455.001

[GRAPHIC] [TIFF OMITTED] 41455.002

[GRAPHIC] [TIFF OMITTED] 41455.003

[GRAPHIC] [TIFF OMITTED] 41455.004

[GRAPHIC] [TIFF OMITTED] 41455.005

[GRAPHIC] [TIFF OMITTED] 41455.006

[GRAPHIC] [TIFF OMITTED] 41455.007

[GRAPHIC] [TIFF OMITTED] 41455.008

[GRAPHIC] [TIFF OMITTED] 41455.009

[GRAPHIC] [TIFF OMITTED] 41455.010

[GRAPHIC] [TIFF OMITTED] 41455.011

[GRAPHIC] [TIFF OMITTED] 41455.012

[GRAPHIC] [TIFF OMITTED] 41455.013

[GRAPHIC] [TIFF OMITTED] 41455.014

[GRAPHIC] [TIFF OMITTED] 41455.015

[GRAPHIC] [TIFF OMITTED] 41455.016

[GRAPHIC] [TIFF OMITTED] 41455.017

[GRAPHIC] [TIFF OMITTED] 41455.018

[GRAPHIC] [TIFF OMITTED] 41455.019

[GRAPHIC] [TIFF OMITTED] 41455.020

[GRAPHIC] [TIFF OMITTED] 41455.021

[GRAPHIC] [TIFF OMITTED] 41455.022

[GRAPHIC] [TIFF OMITTED] 41455.023

[GRAPHIC] [TIFF OMITTED] 41455.024

[GRAPHIC] [TIFF OMITTED] 41455.025

[GRAPHIC] [TIFF OMITTED] 41455.026

[GRAPHIC] [TIFF OMITTED] 41455.027

[GRAPHIC] [TIFF OMITTED] 41455.028

[GRAPHIC] [TIFF OMITTED] 41455.029

[GRAPHIC] [TIFF OMITTED] 41455.030

[GRAPHIC] [TIFF OMITTED] 41455.031

[GRAPHIC] [TIFF OMITTED] 41455.032

[GRAPHIC] [TIFF OMITTED] 41455.033

[GRAPHIC] [TIFF OMITTED] 41455.034

[GRAPHIC] [TIFF OMITTED] 41455.035

[GRAPHIC] [TIFF OMITTED] 41455.046

[GRAPHIC] [TIFF OMITTED] 41455.036

[GRAPHIC] [TIFF OMITTED] 41455.037

[GRAPHIC] [TIFF OMITTED] 41455.038

[GRAPHIC] [TIFF OMITTED] 41455.039

[GRAPHIC] [TIFF OMITTED] 41455.040

[GRAPHIC] [TIFF OMITTED] 41455.041

[GRAPHIC] [TIFF OMITTED] 41455.042

[GRAPHIC] [TIFF OMITTED] 41455.043

[GRAPHIC] [TIFF OMITTED] 41455.044

[GRAPHIC] [TIFF OMITTED] 41455.045

                                 <all>

</pre></body></html>
